<html>
<title> - THE ZIKA VIRUS: COORDINATION OF A MULTI-AGENCY RESPONSE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








        THE ZIKA VIRUS: COORDINATION OF A MULTI	AGENCY RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2016

                               __________

                           Serial No. 114-101

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-028 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Massachusetts              BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
               Michael Kiko, Subcommittee Staff Director
                           Willie Marx, Clerk

                                 ------                                

            Subcommittee on Transportation and Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR., Tennessee           Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DESAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 2016................................     1

                               WITNESSES

Anne Schuchat, M.D., Principal Deputy Director, Centers for 
  Disease Control and Prevention
    Oral Statement...............................................     6
    Written Statement............................................     8
Anthony Fauci, M.D., Director, National Institutes of Health 
  National Institute of Allergy and Infectious Diseases
    Oral Statement...............................................    16
    Written Statement............................................    18
John Armstrong, M.D., Surgeon General and Secretary of Health, 
  State of Florida
    Oral Statement...............................................    29
    Written Statement............................................    32
Bill Moreau, D.C., Managing Director for Sports Medicine, United 
  States Olympic Committee
    Oral Statement...............................................    38
    Written Statement............................................    40

                                APPENDIX

Written Statement from the American Mosquito Control Association, 
  Submitted by Chairman Mica.....................................    56
Written Statement from Ariel Pablos-Mendez MD, MPH, Assistant 
  Administrator for Global Health, U.S. Agency for International 
  Development, Submitted by Chairman Mica........................    64
Robert G. Salesses, Deputy Assistant Secretary for Homeland 
  Defense Integration and Defense Support of Civil Authorities, 
  Department of Defense..........................................    70
Dr. Anne Schuchat's Responses to Questions for the Record, 
  Submitted by Rep. Earl L. ``Buddy'' Carter (GA)................    72
January 29, 2016, International Olympic Committee Statement on 
  Zika...........................................................    76
February 10, 2016 Memo from Scott Blackmun, CEO of the United 
  States Olympic Committee, to Prospective Members of the 2016 
  U.S. Olympic and Paralympic Delegations........................    78

 
        THE ZIKA VIRUS: COORDINATION OF A MULTI-AGENCY RESPONSE

                              ----------                              


                      Wednesday, February 24, 2016

                  House of Representatives,
  Subcommittee on Transportation and Public Assets,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, Duncan, Amash, Massie, 
Grothman, Duckworth, DeSaulnier, and Boyle.
    Mr. Mica. Good afternoon. And I'd like to call the 
Subcommittee on Transportation and Public Assets to order, this 
hearing. And this is a subcommittee of the Committee on 
Oversight and Government Reform.
    Today, we are conducting a hearing on the Zika virus, and 
we are looking at the coordination of a multi-agency response 
to that virus. I'm very pleased to have everyone joining us 
today. The order of business will be as follows: We will have 
opening statements; myself and Ms. Duckworth are here and other 
members joining us. And we will then hear from our witnesses. 
And from the witnesses, we will hear your testimony, and then 
we'll go into questions. That will be the order of business.
    So, without objection, the chair is authorized to declare a 
recess at any time. And I will start with my opening statement, 
and then I will yield to Ms. Duckworth.
    Again, I want to thank everyone for attending. There are 
probably some people that didn't want us to hold this hearing, 
but I think it is very necessary that we do conduct it. I think 
that the Zika virus is probably one of the more difficult 
health challenges that the Nation and the world have faced 
probably since the Ebola crisis. And unlike that particular 
crisis, there is some very good news to report in this hearing, 
and the purpose of the hearing is also to hear from some of 
those involved in making certain that the public health, 
welfare, and safety is preserved while we face this possible 
epidemic.
    And I might say, this isn't something just facing the 
United States; it's facing the world. So it's spread, again, we 
know, across the many continents. And we have international 
events, like the Olympics this summer in Brazil. We want to 
make certain that American travelers there are protected. And I 
might say, also, we have American personnel throughout the 
infected area and the world who are our responsibility to make 
sure they are safe and secure. Many of them are abroad serving 
the United States in diplomatic posts, with the military, and 
others, and we want to make sure that those individuals that 
we're responsible for are also protected.
    I'm pleased, too, with the World Health Organization. 
You've heard me from this dais raise some serious questions 
during Ebola, that they did not act to alert the public and 
declare the seriousness of Ebola at the time. That is not the 
case here. They have acted. They have been proactive.
    I'm also pleased that we have had a very good response, 
both from the Federal level and the State level and other 
agencies in government. And we need to keep it that way, and we 
need to keep going forward.
    Today, the purpose of this hearing is to see where we are 
and what we have done and where we need to go and how we can 
keep this under control.
    I'm very pleased to have a representative from my State, 
which has taken the lead, and Governor Scott and others. We 
have our surgeon general of Florida with us. And we'll hear 
from, again, NIH. And they have done a great job. The Centers 
for Disease Control, we'll hear where they are and get an 
opportunity to get an update on a great world event which we're 
looking at in Brazil later this year.
    Right now--and I want to say this and make this very 
clear--there has been no detected Zika infection from an insect 
or mosquito in the United States of America. No transmission 
that I'm aware of. Most of what we found so far are individuals 
who have traveled somewhere else and come into the United 
States.
    This isn't a South United States problem. In fact, right 
now--and, look, we have a chart we can show later: I think as 
far as Wisconsin in the United States, and--what is it?--23 
States that have now had cases where they have determined that 
someone was infected with the Zika virus.
    So we don't have that infection from mosquitos in the 
United States, but we do have people coming in outside who have 
been infected with that disease.
    So we still have a long way to go in the detection process. 
We don't have a vaccination available. We don't know all the 
connections, and we'll have questions and some directions about 
where we're going to look at how we can go after the disease, 
either for vaccination or for treatment.
    The numbers that we have seen so far are, again, somewhat 
limited in the United States, but, again, getting a head start 
on it--in Florida, we've had 28 cases, and I think two of my 
counties with a single case. I just had lunch with the local 
health director, and I thought that was very informative, 
because I wanted to hear from him how things that we are doing 
here have filtered down to the local level. And I will say that 
report is also good.
    But they do face challenges. They want to make certain that 
they have the test kits available. They want to make certain 
that the testing is available. They want to know where to go 
next. And some of that has been provided. And the State of 
Florida acted in early February, the Governor and others, and 
they have been in close contact with the local officials, which 
I think is extremely important.
    There's some simple things that can be done, and we know 
what they are: using insecticides, using mosquito repellant, 
staying in air-conditioned locations. And that, again, is where 
people are getting the infection. But if we do have the problem 
in the United States, we want to make certain that people are 
aware of the risk that they face and the simple solutions to 
tackle this. It's just like mosquitos that we have from coast 
to coast and from border to border.
    While the CDC remains hesitant to confirm some of the 
links--we'll hear more about that--experts are confident that 
Zika is causing some outcomes that we've seen, and we'll talk 
about them. The most notable and at risk are women and pregnant 
women, and they seem to have--or seem to be fairly certain of 
the link there. We'll find out more about that and other 
possible links to individuals that may cause them serious 
health damage.
    The administration--I woke up at 3 o'clock in the morning. 
I have this folder and fell asleep reading it. I woke up at 3 
and finished it last night. And I did read it. The 
administration, last week, the President sent a communication 
to the Members of Congress and asking for $1.8 billion request 
for emergency action. I also read where Mr. Rogers, our 
chairman of Appropriations, said we happen to have almost the 
exact amount left over from Ebola and the possibility of using 
that. I want to make certain that the funds are available, 
particularly for the research for finding out anything that can 
stop this, either with a mosquito or keep people safe with 
possible vaccination, wherever we are going to go, but that 
also needs funding ASAP. And we want to make certain that those 
funds are available.
    I'll have some questions about the money flow, because 
money usually solves most of our problems.
    The situation is rapidly developing and changing, and 
Americans have concerns, but they need to know that their 
government on each level, Federal, State, and local, are making 
certain that the challenge is being met, and we want to ensure 
the public that we're all receiving the latest information and 
coordinating in good fashion so that we can do the best.
    The United States is fortunate. We have the world's most 
advanced healthcare system in the United States. It's 
impressive. We want to keep it that way and make certain that 
we're well coordinated, we use common sense, and that we'll be 
able to contain the spread of this virus and be well-equipped 
for any future threats it may pose.
    So I'll look forward to hearing from the panel. I welcome 
our witnesses.
    I would like to turn to our ranking member, the gentlelady 
from Illinois, Ms. Duckworth, for her opening comment.
    Ms. Duckworth. Thank you, Mr. Chairman.
    And thank you to our expert witnesses for being here today. 
Today's hearing is an important opportunity to examine the 
effectiveness of our current efforts to combat the Zika virus 
and to ensure that the interagency response is efficiently 
coordinated. There have been 82 reported cases of Zika in the 
United States, including four cases in my home State of 
Illinois. To date, these cases have been limited to travelers 
returning to the United States from affected countries or from 
individuals who have had sexual relationships with returning 
travelers.
    As a new mother, I deeply understand the public's concern 
over the Zika virus. The recent outbreak of this public health 
threat in Brazil has shed light on a disease of which most 
Americans are not aware. And as the head of the Centers for 
Disease Control Prevention, Dr. Tom Frieden, recently 
explained, even the scientific community, there is an 
astounding lack of literature examining the Zika virus.
    Fortunately, our public health community is working hard to 
change this. Since the last major Zika outbreak in 2007, the 
CDC developed a test to detect Zika in the first week of an 
illness or in a sample taken from an infected child. More 
recently, the CDC activated its Emergency Operations Center 
last month in response to this latest outbreak, and on February 
1, the World Health Organization designated the outbreak a 
public health emergency of international concern.
    Our public health system has acted quickly to increase its 
surveillance and diagnosis capabilities in affected areas and 
to ramp up what had been very limited scientific research on 
this virus. I want to thank the CDC and NIH for their very hard 
work and rapid response in this case. However, much work 
remains to be done so that we can better understand the Zika 
virus and develop proven strategies to treat affected 
individuals to contain the virus' spread and, ultimately, to 
develop effective therapies and vaccines that would neutralize 
the threat entirely.
    Further, we must work diligently to assess every available 
control measure and adopt the most effective policies to 
prevent the virus from entering the mosquito population in the 
continental United States.
    Equally important, in light of what appears to be the Zika 
virus' capacity to cause severe birth defects, we must also 
provide safe, effective, and affordable contraception to 
individuals living in areas of risk for Zika transmission. This 
includes taking actions to strengthen the healthcare services 
in areas where mosquito populations are already carrying Zika, 
such as Puerto Rico and the Virgin Islands.
    Zika, like the pandemics before it, knows no boundaries. 
Our contributions to public health efforts in Central and South 
America are first and foremost the right thing to do. But they 
are also critical to controlling the spread of this disease. 
That's why I fully support the President's proposal for $1.9 
billion in emergency funding for domestic and international 
response to Zika. I also emphasize that continued consistent 
investment in public health remains critical in periods of 
crisis as well as in periods of calm. Our public health 
agencies are able to mobilize with agility today because they 
have built on decades of institutional knowledge, capacity, and 
lessons learned to anticipate and better respond to emerging 
threats, some of which we've never even imagined. The emergence 
of Zika should serve as a warning that we must continue to 
invest in our world class public health infrastructure to 
defend us both against this threat and the viruses that will 
surely appear in the future. Until we have more answers, we all 
must remain vigilant against Zika. We must all take reasonable 
precautions so that we give the next generation the best chance 
at full, healthy lives. This requires the cooperation of both 
men and women to prevent transmissions to other humans or to 
mosquitos in the continental United States. I urge everyone to 
proceed with caution to protect themselves, their partners, 
their families, and their communities. I really look forward to 
the testimony of our witnesses.
    And thank you, Mr. Chairman, for holding this hearing 
today.
    I yield back.
    Mr. Mica. I thank the gentlelady.
    And if no other members have opening statements, what we'll 
do is, with unanimous consent, we'll hold the record open for 5 
legislative days.
    Did you have an opening statement?
    Mr. Boyle. That's fine.
    Mr. Mica. Okay.
    But we will hold, with unanimous consent, the record open 
for 5 legislative days for members who would like to submit a 
written statement, and we may be asking our witnesses questions 
in addition to what's done in this formal setting. And they 
will also be made part of the record.
    Without objection, so ordered.
    Okay. Now we'll welcome our--and recognize our panel of 
witnesses today. And I'm pleased to welcome Dr. Anne Schuchat, 
and she is the Principal Deputy Director of the Centers for 
Disease Control and Prevention.
    Dr. Anthony Fauci, and he is the Director of the National 
Institute of Allergy and Infectious Diseases at the National 
Institutes of Health.
    Welcome back, Doctor.
    Dr. John Armstrong, and he is the surgeon general and 
secretary of health for the State of Florida.
    And then we have Dr. Bill Moreau, and he is the managing 
director for sports medicine for the United States Olympic 
Committee.
    I want to welcome all of you. And pursuant to the committee 
rules--and this is an investigation, an Oversight Subcommittee, 
a committee of Congress.
    I'll ask you to stand and be sworn. Raise your right hand, 
please.
    Do you solemnly swear or affirm that the testimony you are 
about to give before this subcommittee of Congress is the whole 
truth and nothing but the truth?
    Let the record reflect that the witnesses have answered in 
the affirmative.
    And while Dr. Fauci has been here before, and maybe others, 
it's customary to give a 5-minute statement, and if you have 
additional information or data you'd like to be made part of 
the official record of these proceedings, ask through the chair 
or a member that they be included, and we'll do that.
    So we will start right out. I want to welcome, again, the 
Deputy Director of the Centers for Disease Control, Dr. Anne 
Schuchat.
    Welcome, and you're recognized.

                       WITNESS STATEMENTS

                STATEMENT OF ANNE SCHUCHAT, M.D.

    Dr. Schuchat. Thank you so much, Chairman Mica, 
Congresswoman Duckworth, and members of the subcommittee.
    CDC and partners here and overseas are working around the 
clock to find out as much as we can as quickly as we can, and 
we are learning more every single day. To accomplish this, CDC 
is coordinating here at home with others across the Department 
of Health and Human Services, including my colleague, Dr. 
Fauci, and we're working with partners across the U.S. 
Government as well as with other parts of the society to make 
sure that we communicate with travelers and healthcare 
providers, update travel alerts and clinical guidance, develop 
improved mosquito control methods, and we're coordinating 
internationally with the World Health Organization and Pan 
American Health Organization on the Zika response. We're 
working directly with Brazil and other nations, and we're all 
trying to learn more about Zika and help prevent its spread.
    I want to begin with three key points. This is a dynamic 
situation. It's changing very frequently. We are committed to 
share what we know when we know it and to revise and adapt to 
the new information.
    Secondly, emerging infections come from nature, and they 
can be challenging. A new syndrome like this can be scary, 
particularly for vulnerable pregnant women. But we can and 
should do more to detect, respond, and prevent these new 
infectious threats.
    Thirdly, CDC has a unique decades-long experience in core 
public health functions that are critical for this kind of 
response. We work on emerging pathogens like Zika. We work on 
disease detection, lab capacity, epidemiology and surveillance, 
response and partnership with State and local governments and 
with other countries.
    What are the facts? Well, we've known about this virus for 
a long time, but only in 2007 was the first outbreak 
recognized. We think the virus usually causes a mild syndrome, 
but we've recently learned that it appears to be associated 
with serious birth defects, microcephaly and possibly others. 
There may also be links with a neurologic problem, Guillain-
Barre syndrome. It's principally spread by the Aedes mosquito, 
a very difficult mosquito to control, and that is one of our 
challenges.
    Where is this going? There have already been more than a 
million cases in Brazil. A number of countries in Latin America 
are seeing sharp increases in Zika virus infections. We expect 
many travelers returning to the United States to have Zika 
virus infection, but we are doing what we can to prevent the 
severe complications. That's why we issued the guidance for 
pregnant women to avoid traveling to areas where the virus is 
spreading, because at this time avoiding the virus and the 
mosquitos that spread it is the best way to protect a 
pregnancy.
    We expect there may be a little bit of local transmission 
in the Southern United States, because the mosquito that 
carries this virus is resident in those communities. We don't 
right now expect a lot of local transmission, but we need to be 
ready for it, one of the reasons that the Florida Governor did 
declare that emergency.
    We think that other countries are the place where critical 
information can be learned, and that's why we're working side 
by side with our colleagues in Brazil and Colombia to learn as 
much as we can and as quickly as we can. CDC has been very 
busy. As you've heard, we've activated our Emergency Operations 
Center to our highest level. We've actually got more than 500 
people working on this response, not just our infectious 
disease experts and our insect experts, but also our experts in 
birth defects, in communication, in travel health. We have 
developed and distributed kits for laboratory detection, and 
we're working with State and local health departments so that 
they can deploy those tests. We're working on the ground in 
Brazil and Colombia trying to uncover the mysteries of those 
links that you were talking about.
    While we're doing much already, Zika requires a robust, 
all-of-government response, as put forward in the emergency 
Zika funding request.
    CDC's part of that request was to provide support to Puerto 
Rico and other areas in the United States, the territories 
where the virus is already spreading; secondly, for the rest of 
the U.S., where the travelers may be returning and where 
laboratory capacity and communication is going to be vital as 
well as insect monitoring; and, thirdly, for our international 
partners, where we do have a chance to learn as much as we can 
and to protect Americans in that way.
    This funding would support CDC's work in prevention, 
detection, and response. To conclude, we must act swiftly to 
address the challenge of Zika virus. We are learning more every 
day, but there's much more to learn and much more to do. And 
CDC will continue to work collaboratively across HHS and with 
other departments and with Congress to ensure an effective 
response.
    Thank you.
    [Prepared statement of Dr. Schuchat follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    Mr. Mica. Thank you for your testimony.
    We'll now turn to Dr. Fauci, representing NIH.
    Welcome, sir, and you're recognized.

                STATEMENT OF ANTHONY FAUCI, M.D.

    Dr. Fauci. Thank you very much, Chairman Mica, Ranking 
Member Duckworth, members of the committee. First, I want to 
thank you for the opportunity to discuss with you and the 
committee this morning the role of the National Institute of 
Allergy and Infectious Diseases in the research component of 
the broader approach toward addressing the Zika virus threat.
    The NIAID, the institute that I direct, has a dual mandate 
among NIH institutes. First, we maintain and grow a robust 
basic and research portfolio in the disciplines of 
microbiology, infectious diseases, and immune-mediated 
diseases. However, despite that long-term commitment, we are 
also prepared and are part of our mandate to rapidly respond to 
new and emerging disease threats. And this has been something 
that we have been doing essentially from the beginning.
    In fact, if one takes a look at this slide, it is the title 
of a perspective that I wrote last month for the New England 
Journal Medicine, and you will see from the title, it says, 
``Zika Virus in the Americas--Yet Another Arbovirus Threat.'' 
And what I was referring to is that, over the past couple of 
decades, we've see new diseases of the arbovirus type in the 
Western Hemisphere that we have not seen before: West Nile; 
dengue, from decades ago; chikungunya in 2013; and most 
recently, in 2015, Zika. When one looks at the role of what we 
do--if we can go back one--the role of what we do, the NIH's 
mandate is to do basic and clinical research to provide the 
research resources for industry and academia with the ultimate 
mandate to develop vaccines, therapeutics, and diagnostics. So 
let me take a couple of minutes to just describe some of these. 
When you look at things like the epidemiology and natural 
history, we are focusing on looking at symptomatic versus 
asymptomatic disease. What about the role of virus and how long 
it lasts in an individual following infection, a question 
extraordinarily important to pregnant women and women who want 
to become pregnant? What about cohort studies to actually nail 
down the causative relationship or not between infection and 
pregnancy and the development of congenital abnormalities, such 
as microcephaly, as well as understanding the pathogenesis of 
disease?
    With regard to basic research, it is very similar to the 
basic research we've done with other viruses throughout the 
years, ranging from HIV 30-plus years ago to most recently with 
Ebola. And that is to look at viral structure, viral pathology, 
medical virology, the pathogenesis of disease, looking at the 
immune response, which gives us great insight into the 
development of vaccines.
    In addition, as you know, the CDC takes the lead role as 
disease detectives in trying to determine the diagnosis of a 
disease, something they are doing right now. NIH grantees and 
contractors are also working on a more sensitive and specific 
antibody test to determine if, in fact, someone has been 
infected, because we know now the current tests that are 
available have a degree of cross-reactivity.
    One of the most important things we do is to develop 
vaccines, as we've done for so many other of these emerging 
threats. The candidates you see on the slide, the two marked 
with red, are the two that are most advanced and are 
essentially ready to go into early trials. We're partnering 
with our industrial colleagues, and right now, let me give you 
an example of why it's important to have done decades of 
research in other diseases that gives us a head start. Years 
ago, we developed a vaccine for West Nile virus. We went into 
phase 1. It was shown to be safe, and it was shown to induce an 
immune response that you would predict would be protective. We 
didn't have any industrial partners, so we never made it to the 
advanced development. But we used that platform to develop now 
a Zika vaccine that is essentially ready to go in the 
development of the early preclinical studies. And it really is 
a very interesting phenomenon. We took what's called a DNA 
piece of genes, and we stuck in it a West Nile gene to express 
a protein of West Nile. So all we did this time was take that 
same platform, take out the West Nile gene, and stick in the 
Zika gene. So, right now, we are making this vaccine, and we 
predict it will be ready to go into phase 1 trial by the summer 
of this year, and hopefully, by the end of 2016, we'll have 
enough information to decide if we can even go further to an 
advanced trial. And I will be happy to discuss that during the 
questioning period.
    Finally, when one looks at therapy, we're doing screening 
of drugs of known activity against certain of these viruses, as 
well as new drugs that have potential activity. This is a very 
important issue, and we are now partnering with many of our 
industrial and biotech partners to do this.
    Finally, on this last slide, I just want to recapitulate 
what I said from the very beginning. Emerging infections have 
been with us all along. They are with us now, and they will 
always be with us. I call it the perpetual challenge, as I did 
in this review from a few years ago. And I would like to thank 
this committee and other committees for the extraordinary 
support that you have given us over the years to allow us to 
fulfill this mandate. Thank you.
    [Prepared statement of Dr. Fauci follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Mica. Thank you, Dr. Fauci.
    Now we'll recognize our Florida surgeon general, Dr. 
Armstrong.
    Welcome, and you are recognized, sir.

               STATEMENT OF JOHN ARMSTRONG, M.D.

    Dr. Armstrong. Thank you, Chair Mica, Ranking Member 
Duckworth, and members of the subcommittee. I'm glad for the 
opportunity to be here with you this afternoon.
    Florida has a long tradition of combating and eradicating 
mosquito-borne diseases. In fact, the Florida Department of 
Health was created out of an epidemic of yellow fever in 1889. 
Our mosquito-borne outbreaks in modern times have been local 
and of short duration. Consistently, the approach has been 
threefold: first, mosquito control; next, public information; 
and, third, health professional education. And we have seen 
success with containment of West Nile virus, dengue, and 
chikungunya. This afternoon, I'll provide an update on the 
status of Zika virus in Florida, and an overview of how Florida 
has successfully applied CDC guidelines to protect our 
residents and visitors.
    To date, we have had no transmission of the Zika virus in 
the State of Florida. Through healthcare professional 
readiness, our department has reported 29 travel-related Zika 
cases to the CDC, most recently from Seminole County. A travel-
related case is defined as a disease that was contracted 
outside of the State prior to arrival.
    None of our confirmed cases of active Zika virus involve 
pregnant women. We have, however, identified three pregnant 
women who traveled to countries affected by Zika and who likely 
had Zika virus in those countries and who have returned without 
any symptoms. They have evidence of remote infection with Zika, 
and we are applying CDC guidelines to ensure that these women 
receive care through their health professionals consistent with 
those guidelines.
    We've had 29 cases in 11 Florida counties, and we currently 
have the laboratory capacity to conduct over 4,800 viral tests 
for active Zika and over 1,200 antibody tests to detect past 
Zika infection. We've been conducting approximately 300 tests 
for Zika a week and reporting positive results to our partners 
and the public daily.
    Recognizing the increase of travel-related cases of Zika in 
Florida, on February 1, Governor Rick Scott requested a 
briefing with the CDC on the Zika virus, and on that call, we 
confirmed that the Aedes mosquito, the carrier of Zika, is 
common in Florida and that there are potential links between 
Zika and newborn microcephaly as well as adult neurologic 
disorders, including Guillain-Barre syndrome. What was most 
clear from that briefing is that there is scientific 
uncertainty about Zika transmission beyond the mosquito bite 
and about the impacts of Zika after an individual becomes 
infected.
    Guidance from the CDC should account for this uncertainty 
while providing actionable recommendations with what is known. 
Based on the information from that meeting and the tripling of 
travel-related cases in the following week from three to nine, 
on February 3, Governor Rick Scott issued an executive order 
directing me to declare public health emergencies in the 
counties with diagnosed travel-related cases, and on that same 
day, I declared public health emergencies in the four impacted 
counties at that time and have since added counties to the 
declaration, as I've shared.
    The public health emergency included three key directives: 
one, notification of Florida's commissioner of agriculture, who 
oversees the Office of Mosquito Control, which connects with 
Florida's local mosquito control boards; next, mobilization of 
local leaders to coordinate mosquito-control efforts and public 
outreach to vulnerable populations with meeting summaries and 
action plans reported back to the Department of Health; and, 
finally, outreach to medical professionals with up-to-date CDC 
guidance to increase awareness and access to diagnostic tools. 
At the department, we established an incident command team to 
address comprehensive readiness activities.
    Florida has one of the premiere State lab systems in the 
country with a central laboratory in Jacksonville and branch 
laboratories in Miami and Tampa. When the public health 
emergency was issued, Governor Scott recognized that with over 
20 million residents and over 100 million tourists annually, 
Florida must stay ahead of the possible spread of the Zika 
virus and that our lab capacity plays an essential role in that 
effort. He called on the Florida Department of Health to have 
on hand at least 4,000 viral tests, which are commercially 
available and were ordered the next day. Governor Scott called 
on the CDC to provide at least 1,000 Zika antibody tests so 
that we could test individuals, especially pregnant women and 
new mothers, who have traveled to affected areas and had 
symptoms of Zika. The antibody test allows the State to see if 
individuals ever had the Zika virus. At that time, we had a 
capacity for only 475 tests. On February 9, the CDC provided 
Florida with 950 additional antibody tests, bringing our total 
to 1,425.
    So, with our existing lab infrastructure and the needed 
testing resources we are now equipped to work with medical 
professionals to test patients with symptoms of the Zika virus 
and associated travel history to an impacted country based on 
CDC guidance. The Florida Department of Health licenses all 
Florida medical professionals and has existing communication 
channels with our licensees, and we have used these channels to 
share CDC guidance on the disease, treatment and testing 
protocols, as well as recent FDA recommendations regarding 
blood donation from individuals who have been to areas with 
active Zika virus transmission. Healthcare professional safety 
has always been of paramount importance, and we have emphasized 
CDC guidance that universal precautions provide the appropriate 
level of protection.
    On February 12, at the request of Governor Scott, the CDC 
hosted a conference call for Florida medical professionals to 
provide information on the symptoms, treatments, and proper 
precautions for Zika. Nearly 600 medical professionals and 
healthcare facilities dialed into the call to hear directly 
from the CDC on the measures they need to take to help 
patients. Strengthening the connection between healthcare 
professionals and the public health system is essential for 
tracking and containing disease, and we remain in frequent 
contact with the CDC and FDA for the latest guidelines on how 
best to prepare communities in Florida.
    Finally, public outreach. We work to keep the public 
informed as one of the best ways to calm fears and educate for 
action. At the direction of Governor Scott, we've established a 
Zika virus information hotline for Florida residents and 
visitors as well as anyone planning on traveling to Florida in 
the near future. We want Florida residents and visitors to have 
access to an open line of communication to receive the latest 
updates, have their questions answered, and get advice on what 
steps they can take to protect their homes and families. We 
issue a daily press release with up-to-date diagnosis counts 
and tips for Floridians on how to protect themselves. We've 
established a Web page with links to CDC guidance and public 
information on community meetings. We've developed infographics 
to explain clearly what the virus is and the best practices for 
mosquito protection. And these materials have been requested 
for rebranding by other States. And we've made materials and 
presentations available to our 67 county health officers as an 
integrated Department of Health to inform community 
stakeholders and partners.
    We are sharing three key messages about Zika virus: One, 
anyone who is pregnant, intends to become pregnant, or might 
become pregnant should not travel to a country with active Zika 
virus transmission as determined by the CDC. Two, travelers 
from Zika infected countries should have protected sex for at 
least a month upon returning to the United States due to the 
lingering presence of the virus and various bodily fluids. And, 
three, the best way to prevent Zika and other mosquito-borne 
viruses is through mosquito control, which includes individual 
responsibility to eliminate any sources of standing water where 
the mosquito can breed, to use mosquito repellant and cover 
with proper clothing, and to ensure that window and door 
screens are in place and intact.
    Our residents play an important role in helping prevent the 
spread of mosquito-borne viruses, and we want them to have all 
the information they need to join the effort.
    In Florida, we have developed a proven seamless model to 
take CDC guidance from the Federal Government and get it to our 
residents, our visitors, our health professionals, and partner 
organizations to protect them from emerging mosquito-borne 
diseases. I'm confident that our history as a department has 
prepared us to address this issue. In the past, we've had 
success in containing other mosquito-borne viruses, such as 
chikungunya and dengue, with systems of readiness that mirror 
the level of preparedness that we currently maintain. We have 
made it a priority to stay ahead of the possible spread of the 
virus in Florida, and we will continue to do all we can to keep 
Floridians safe.
    Thank you.
    [Prepared statement of Dr. Armstrong follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
      
    Mr. Mica. Thank you, Dr. Armstrong.
    And we will a now hear from the representative from the 
U.S. Olympic Committee, Dr. Moreau.
    Welcome, and you are recognized.

                 STATEMENT OF BILL MOREAU, D.C.

    Dr. Moreau. Thank you, Chairman Mica, Ranking Member 
Duckworth, and the other members of the subcommittee for 
holding this hearing on Zika and U.S. governmental 
preparedness.
    The USOC recognizes that Zika is a serious global health 
concern and an issue that we are proactively addressing with 
Team USA.
    The U.S. Olympic Committee is a sports organization. Our 
mission is to support U.S. Olympic and Paralympic athletes in 
achieving sustained competitive excellence while demonstrating 
the values of the Olympic movement, thereby inspiring 
Americans. Every 2 years, we bring Team USA to the Olympic and 
Paralympic Games. In the between games, we work very closely 
with 47 national governing bodies of sport to build Team USA.
    The safety of our athletes and staff is our number one 
priority. As the managing director of sports medicine for the 
U.S. Olympic Committee, my mission is to build and coordinate a 
complex network of medical doctors, healthcare services, and 
academic experts across numerous medical fields.
    The U.S. Olympic Committee is not an organization with a 
focus on the specialty of infectious disease. We rely on the 
tremendous expertise of the Centers for Disease Control and 
Prevention and other public and private infectious disease 
experts to address and help us to understand the threats that 
viruses, such as Zika, pose for our athletes. We have been in 
regular contact with the CDC and other experts for months. They 
continue to provide us sound recommendations based on the 
information available to date. We have supported these 
recommendations, developed a protocol to mitigate risks, and 
provided this information to all potential Team USA athletes 
and support staff likely to travel to Rio before and during the 
Summer Olympic and Paralympic Games.
    I have submitted the most recent USOC communications to the 
athletes with this testimony. Working with the CDC and other 
experts, the USOC has developed a protocol to mitigate the risk 
posed by Zika. Let me walk you through that right now. We're 
continuously communicating the latest information to our 
athletes, staff, and other stakeholders. We are steadily 
communicating with partners, such as the International Olympic 
Committee, the World Health Organization, the CDC, Department 
of Defense, and infectious disease specialists. We are 
monitoring evidence-based sources for information regarding 
viral pathogens. We are following the mosquito bite 
precautions, as provided by the CDC. We are following insect 
repellant selection, as recommended by the DOD. We are 
maintaining awareness through our partners regarding new 
interventions as they are identified. We are training our 
medical team regarding the early recognition and interventions 
for viral infection such as Zika. We are stocking our formulary 
with the best supportive medical interventions. We are 
providing DEET-containing insect repellant for personnel, 
issued prior to departure with additional supplies on hand in 
Rio. We are considering pretreatment with permethrin kits for 
all USOC personal clothing. We are also considering providing 
bed nets for all personnel, and we are identifying Brazilian 
locations for additional support regarding viral pathogens.
    In conclusion, knowledge about Zika virus is growing on an 
almost daily basis. We are following all of the developments. 
We are incredibly pleased with the support and collaboration 
that we've received from the CDC, the DOD, and others and are, 
indeed, indebted to them for sharing this information so that 
we can provide the best, most accurate information to our 
athletes and staff who most directly serve and support our 
athletes. We will continue to work closely with the CDC, the 
DOD, and other infectious disease experts throughout the Rio 
games, and we will continue to follow the CDC recommendations.
    Thank you, again, for the opportunity to address this 
important issue.
    [Prepared statement of Dr. Moreau follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
    Mr. Mica. Thank you, each of our witnesses, for their 
testimony.
    And we'll turn to questions. And I'll begin. Dr. Schuchat, 
can the CDC confirm what I said earlier, that we have not had a 
case of Zika infection from a mosquito in the United States? 
Everything is coming in so far from another source. Is that 
correct?
    Dr. Schuchat. For the 50 States and the District of 
Columbia, that's right. We do have cases in Puerto Rico and the 
territories.
    Mr. Mica. Okay. Okay. So Puerto Rico and the territories, 
Virgin Islands----
    Dr. Schuchat. The Virgin Islands and American Samoa, at 
this point, I believe they are--but continental U.S., 50 
States, not yet, right.
    Mr. Mica. Now, the next thing--and I just became more 
concerned as I heard Dr. Armstrong reveal the issue with 
pregnant women. And we think there's a link, pretty good link, 
to some birth defects. And this is a Transportation Oversight 
Subcommittee along with other things, but these people are 
coming in mostly from Latin and South America by air. Are there 
warnings now to people coming in? Is everyone getting a warning 
who comes in, particularly women? I'd be concerned. When I read 
all the testimony last night, it seems like the women are the 
most at risk. We don't know. But are they getting a warning?
    Dr. Schuchat. We have been working very closely with air 
travel industry and other travel partners, so there's signage 
and so forth.
    Mr. Mica. Okay. I think that, again, it would be good to 
send out something that--and the airlines have cooperated. They 
always cooperate. We've had the bird flu; we've had----
    Dr. Schuchat. Absolutely.
    Mr. Mica. --others, Ebola, others. But I think we need to 
get a warning. It's not that many coming in. We know where they 
are coming in from, but the infected areas, that there be some 
kind of warning to the passengers.
    We do know that there's this--and I'm not technically 
qualified; I get the wrong terms, incubation or whatever you 
call it--the period, the period of vulnerability from 21 to 30 
days; that's pretty much agreed on, Dr. Fauci, we think?
    Dr. Fauci. Yes.
    Mr. Mica. You said stop having sex for 30 days or something 
along----
    Dr. Fauci. Yes. If you are infected, you will clear the 
virus within 7 days, usually, and, therefore, for the rest of 
the time, generally, except if you are a male, and it could be 
in the semen, which has been demonstrated in a number of 
individuals.
    Mr. Mica. We don't know how long that's----
    Dr. Fauci. We don't know. It has been in some, 
unfortunately, as far out as 62 days.
    Mr. Mica. As far as what?
    Dr. Fauci. One was 62 days, but that's maybe an outlier, 
but we don't know how long----
    Mr. Mica. Well, again, I think the first thing is getting 
the warning out. These are people coming into the United States 
from infected areas. So that would be my concern, and we need 
to work with the aviation industry to get these warnings out 
there, particularly among women, and then advise them of the 
risk that we know so far.
    Okay. I have a release from the Governor's Office just a 
couple of minutes ago, 2:27, asking the Centers for Disease 
Control for another 250 kits to test for Zika virus. Are you 
able--now, they--you've already cooperated, and you guys have 
been there. Dr. Armstrong, the requests have gone in. 
Everything has been done in a timely fashion. Are we able to 
meet this request, and where are we in the stockpile of making 
certain we have the test kits?
    Dr. Schuchat. You know, we have been working around the 
clock to produce kits and to develop even better tests, and 
we--one of the reasons for the emergency request is the volume. 
We estimate about half a million pregnant women will be 
traveling back and forth to affected areas this year, 35,000 
pregnant women in Puerto Rico alone. So keeping up with that 
volume for the State support is one of the reasons for the 
emergency request.
    Mr. Mica. But do we have the test kits now or ordered? Is 
there----
    Dr. Schuchat. Well----
    Mr. Mica. You just said there may be a big need. Our job is 
to stay ahead of the curve and your job. Do we have the test 
kits, like here's one small additional order, and can we meet 
the additional?
    Dr. Schuchat. Where we are right now is----
    Mr. Mica. You have the orders in----
    Dr. Schuchat. We've produced about 30,000 and we'll have 
about 90,000 shortly. So we're working around the clock.
    Mr. Mica. Okay.
    Dr. Schuchat. And we're working with private partners so 
that they can help us----
    Mr. Mica. Okay. So we are alerting--we are going--if we 
haven't, we are going to alert people coming in. We are going 
to work with you on that. On the test kit, we want to make sure 
we have test kits available and the supply.
    The thing that startled me was the blood supply, because 
this is in the blood. We should also have a warning about there 
ought to be 60, 90 days, a warning that people should not 
donate blood or identify that they've been to a country where 
they've been exposed when they are coming back.
    Dr. Schuchat. Yes. The FDA has--actually, voluntarily, the 
blood banks did that with a month--self-deferral within a 
month, and the FDA instituted it formally. There's also an 
effort now in Puerto Rico to import blood, because the virus--
--
    Mr. Mica. In----
    Dr. Schuchat. --because they can't assure that local blood 
will be okay.
    Mr. Mica. And is FDA giving proper warning?
    Dr. Schuchat. Absolutely.
    Mr. Mica. God bless the people of Puerto Rico. They should 
have some transparency in the blood supply, truth----
    Dr. Schuchat. Right. And there's accelerated effort to 
develop screening tests so that blood can be assured to be safe 
in endemic locations.
    Mr. Mica. Okay. Now, you guys have been great in 
identifying the course forward. I've got a couple of quick 
questions. The testing--and you're trying to get more advanced 
tests. And a lot of that evolves around the President's 
request. It was a good request. I just read it. Where is my 
President's request here, guys? Here it is, from the White 
House to the Speaker and all the Members. And he asked for 
about $1.8 billion. Now, coincidentally--and I didn't know 
this; I have a letter back from Mr. Rogers, the chairman of 
Appropriations--there's about $1.8 billion available with 
leftover money from Ebola. Do you have the ability to move that 
money into where we need it?
    Dr. Schuchat. The----
    Mr. Mica. I'll ask both of you, CDC, NIH.
    Dr. Schuchat. A couple of key points about Ebola. The 
outbreak is out of the headlines, but there is still 
substantial effort. Last month----
    Mr. Mica. But you still have a balance of about 1.8 or 9 
billion dollars?
    Dr. Schuchat. Not--the CDC does not have that large a 
balance for Ebola. Our Ebola resources are either committed 
or----
    Mr. Mica. But the administration does have--again, from Mr. 
Rogers, the chairman of Appropriations, is saying that that's 
unexpended dollars. My whole question is: There's some money 
available. Do you have money to address this now?
    Dr. Schuchat. We----
    Mr. Mica. Are you short?
    Dr. Schuchat. The resources for Ebola are committed. They 
are global health security resources, which are fully 
programmed.
    Mr. Mica. Okay. Then do you have resources now. I mean, we 
do a lot of things around here by executive order. We shift 
money. I mean, in a nanosecond you can see the President or the 
administration shifting money to some cause.
    Dr. Schuchat. Right. The committee----
    Mr. Mica. Do you have that ability to get the test kits, to 
get--and then I want to ask Dr. Fauci, because you've got a 
whole bunch of things in research. You're on--it was fantastic 
news to hear the summer trials; by the summer, you're moving 
ahead, and you showed us how you're doing that. But I want to 
know and assure these Members that you feel that you have the 
resources and support from the administration to move forward. 
Do you, Dr. Fauci?
    Dr. Fauci. Our proportion of the Ebola money, we have----
    Mr. Mica. Well, you have Ebola, and you have other money.
    Dr. Fauci. Right, but I'll explain to you what we are 
doing. So our proportion of the Ebola money, we've essentially 
spent all of it except for maybe $9 million. So we have 
obligated almost all of our Ebola----
    Mr. Mica. Do you have other sources?
    Dr. Fauci. Our sources right now, without the supplement 
that's been asked for by the President, is moving money out of 
doing other things. So let me tell you what we have done. We 
have money that we have been investing in contractors and 
grantees who do Flavivirus research, both in the United States 
and Brazil. We have now directed them to switch over and add on 
nearly----
    Mr. Mica. They are under contract to address that----
    Dr. Fauci. Right. Yeah. But they are going to have to not 
do other things in order to do that.
    Mr. Mica. Okay. And do you have people under contract?
    Dr. Schuchat. We've--the global moneys have--commitments 
have been made to 17 high-risk countries in Africa where we--
and Asia, where--which are very vulnerable for exactly what 
happened with Ebola.
    Mr. Mica. But you're directing some of those funds now to 
Zika. And is that 17 countries you talk about----
    Dr. Schuchat. No. No. That's--those resources are for 
African countries. The----
    Mr. Mica. But for what? Ebola? Or for other diseases? All 
of the above?
    Dr. Schuchat. To prevent, detect, and respond to threats, 
including----
    Mr. Mica. So it could be Zika?
    Dr. Schuchat. In those countries, they are not having Zika. 
So, essentially----
    Mr. Mica. Well, it is in different----
    Dr. Schuchat. Right, exactly. The geography of that 
global----
    Mr. Mica. And do you intend to redirect some of that money 
now that we have this?
    Dr. Schuchat. We think that would be terribly dangerous in 
terms of the outbreaks that are ongoing.
    Mr. Mica. Again, what I am trying to get is to make certain 
you have the resources. If you don't have them, we need to 
know. We need to know that also the things that need to get 
under contract are under contract for the test kits, for the 
research, for the vaccine, for moving this little protocol 
forward.
    Dr. Fauci.
    Dr. Fauci. Yeah. So, Mr. Chairman, just so that I can 
clarify, in order to get a jump start, we took money that we 
had allocated for things like dengue and moved it over. I will 
not be able to proceed with the trial that I described to you 
without additional money.
    Mr. Mica. Okay.
    Dr. Fauci. --which is one of the reasons why----
    Mr. Mica. See, that's what we need to know----
    Dr. Fauci. I won't be able to do that without additional 
moneys.
    Mr. Mica. We need to tell our colleagues. The request is 
in. The President gave it to us last week. We'll have to work 
with our leadership, but we want you to have the funds 
available. We don't want to neglect important research. And one 
of the reasons I voted for the omnibus is we have additional 
money in research. I was told Alzheimer's and some other 
disease. You can't rob Peter to pay Paul.
    Dr. Fauci. Our summer plans are dependent upon the 
supplement.
    Mr. Mica. Okay. All right.
    Well, again, I have other questions, like notifying--you 
notifying our DOD and overseas personnel through State and DOD. 
Have they--are there official notices going out and the risks 
and the warnings and all that?
    Dr. Schuchat. Yes. We have been working closely with those 
departments for the Americans overseas.
    Mr. Mica. We've got families and everybody out all around 
the globe
    Dr. Schuchat. Absolutely.
    Mr. Mica. I have gone over my time. We'll come back, as 
we've got plenty of time, as you can see, with the members that 
are here.
    Ms. Duckworth, I'll yield to you. Thank you.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Dr. Schuchat, I want to sort of build on what the chairman 
was talking about in terms of notifying travelers who--they are 
coming back into the United States. I'm wondering about the 
travelers in the United States who might be on their way out or 
what information is being provided. What guidance has the CDC 
provided to the obstetric community in the continental U.S. 
regarding Zika?
    Dr. Schuchat. We have been working very closely with the 
clinical community, including obstetricians. We have developed 
joint guidance. We have used--the obstetricians' Web site, in 
fact, has distributed our guidance broader than we have been 
able to, to the 65,000 obstetricians in America. And we have 
held calls and sessions for questions and answers. We are very 
keen to be letting women know before they travel, and the 
signage and the outreach is through both direct health 
clinician channels and through consumer groups as well. I did a 
Scary Mommy blog, and we have been really working all the 
social media as well as the professional groups so that women 
know and that their families know what to expect. We know that 
women's most trusted source is their own doctor, and so we want 
their own doctor to know the answers to the questions.
    With a breaking syndrome like this, information is updated 
frequently, so it's not just a one-time guidance, but ongoing 
updates.
    Ms. Duckworth. Is that a similar effort with, I guess, 
family physicians or groups where--I'm thinking of these 
countries; if I were travelling to them, I would need to get 
immunized for a range of other diseases before going anyway. 
And if I was planning a trip, I would be going to get those 
particular immunizations. Is Zika also then being added as part 
of the conversation?
    Dr. Schuchat. Yes, that's right. Our travel health site is 
the most popular site on CDC's Web site, and we work really 
closely with both the clinical community and the special travel 
health and travel industry to make sure that people know what 
to expect where they're going: what to eat and drink or not, 
and what shots they might need before they travel. So Zika has 
been added to those messages.
    Ms. Duckworth. Thank you.
    Dr. Fauci, I'm a big fan of NIH and the work that you do, 
and I certainly think we should be funding you at far higher 
levels because it's money--it's a savings; it's an investment. 
Do you know if there's a specific stage during pregnancy when 
exposure to Zika is more likely to cause microcephaly?
    Dr. Fauci. We don't know for sure, but if it acts like 
virtually all other viruses that cause congenital 
abnormalities, the first trimester is overwhelmingly the most 
vulnerable. Whether or not individuals who might get infected 
later on in pregnancy have a degree of adverse event with the 
pregnancy, it's not entirely clear. I wouldn't be surprised if 
there are some outliers in which you can have late effects of 
infection later on. But when you think about this, almost 
always the first trimester is the most vulnerable.
    Ms. Duckworth. And I understand that the severity of the 
birth defects caused by Zika do vary?
    Dr. Fauci. Very much so.
    Ms. Duckworth. Do we have any idea what causes the 
variance, or is this all part of the learning process that 
we're in right now?
    Dr. Fauci. It's part of the learning process with regard to 
Zika, but, again, you use other models, like rubella, CMV, and 
others, and there isn't just one size fits all. You have a 
great degree of variability, and it's not surprising that you 
might have something as severe microcephaly, to the point of 
the fetus not even surviving, or you might have birth with just 
some abnormalities of vision or perhaps some mental issues, so 
it goes from one end of the extreme to the other. And it's 
probably just a variability of the penetration of the virus 
through the placenta to the baby.
    Ms. Duckworth. Are those mental issues, do those also 
include mental illnesses like schizophrenia or bipolar 
disorder?
    Dr. Fauci. You know, there have been reports in the past, 
not with Zika yet, of infections that mothers have during early 
parts of pregnancy and what is apparently an increase in the 
incidence of certain types of disorders. There is some 
controversy about that, but there's enough information to 
suggest that there would be an impact on some aspect of brain 
function, which might also include things like psychiatric 
issues.
    Ms. Duckworth. Dr. Schuchat, I think you might be the 
organization that works with the DOD, perhaps. What about 
military women that are being deployed especially? I served in 
Operation New Horizon multiple times and various missions in 
Latin America. What are we doing with DOD, with military men 
and women who are going over?
    Dr. Schuchat. We have been working closely with the 
military and the Department of State so that our guidance for 
Americans traveling abroad can be consistent for the military 
that are serving abroad as well as for the State Department 
employees and their families. We do think that in places where 
there's active circulation of Zika virus right now, 
particularly Latin America, that the ability to--that it's not 
good for pregnant women to be there. And if they're interested 
in redeploying elsewhere, I think the departments are working 
with them on that.
    Ms. Duckworth. Is there any plans to do any type of 
universal testing and monitoring of troops who are assigned 
there? Most of these are going to be Reserve and National Guard 
troops also. So they're going. They're in planning. They are 
going to go. They are going to go do their 3 weeks or their 1 
month, and they come back. But it is a nice population that you 
can track who will go and come back.
    Dr. Schuchat. Absolutely. One of the aspects of 
coordination across the government is the intergovernmental 
leadership calls that we have, and the DOD is very actively 
participating in that. They do enormous amounts of research and 
monitoring and force readiness, so I am not personally aware of 
whether there is deployment tracking in terms of cohort studies 
going on, but that is the kind of thing that they are able to 
do.
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman, and thanks to the 
ranking member, for this really interesting hearing.
    And, first off, congratulations to all of you. I'm always 
very proud of the fact of our robust public health system in 
the United States. I've worked in local government, State 
government. It works best when nobody notices. But in this 
global economy with pandemics, always something we have to be 
cautious about.
    My questions are two lines really of questioning. Dr. 
Fauci, first of all, how would you characterize the American 
role in global pandemic preparedness? We are looked at both 
because Americans travel a lot, but because of our 
infrastructure as a leader in this, how do we interact with the 
global community and make sure that we're using our resources 
in an effective and efficient way, given our position?
    Dr. Fauci. I think we interact quite well, and it's getting 
better and better. Every time we have a challenge, there are 
really lessons learned that I think are important, everything 
from responding to a pandemic influenza or the threat of a 
pandemic influenza, to the global response to Ebola in which 
there were several lessons learned. And, even now, all of are 
us are experiencing--like Dr. Schuchat and I were very much 
involved in the issue with Ebola and as people who are now 
involved with the issue with Zika--we already see the 
differences in how the global community has responded in a much 
more robust way than we did before. So the answer to your 
question is I think we have done well all along, but we're 
really doing better now because of experience.
    Mr. DeSaulnier. So the global preparedness is going up 
exponentially, unfortunately, as you get more incidents?
    Dr. Fauci. Yeah, I believe so. And we have a global health 
security agenda that we're a part of, the United States is part 
of, which is also part of that preparedness issue.
    Mr. DeSaulnier. Doctor, you have from the CDC's 
perspective?
    Dr. Schuchat. Yes. I think people are taking the issues of 
preparedness very seriously, and the importance of being able 
to prevent, detect, and respond everywhere is vital, so the 
U.S. is a leader in that, but we have now got many other 
countries joining in the process, and the WHO, of course, did 
jump on this a lot quicker than previously.
    Mr. DeSaulnier. So my other line of questioning is similar 
to the ranking member's. Dr. Fauci, I'm told you were involved 
when the AIDS epidemic first began. And being from the bay area 
and being old enough to remember that, even in the bay area, as 
we were dealing with that and researchers at places like UCSF 
were dealing with it, many of whom are still practicing, the 
miscommunication was a huge struggle, the things that people 
would say, both politically and in terms of our effectiveness. 
But, now, all these years later, you still have that, but then 
you have social media. Just curious, you spend a lot of your 
time, I imagine, correcting misinformation, and how much, if 
you'd like to talk about that, about what you're learning about 
how we communicate vis--vis social media and what time you have 
to expend maybe correcting what's out there, and has that 
changed over time?
    Dr. Fauci. Well, part of the administration and, in this 
case, the Department of Health and Human Services, which is the 
predominant agency involved, is that we try very hard, all of 
us, to get out there publicly with the media, both the classic 
media and the social media, myself and Tom Frieden, and Anne 
Schuchat; we're on the media all the time, TV, radio, et 
cetera, trying to get the information out.
    And what we have learned all the way back from the years of 
HIV/AIDS is that we want to get correct information out, and 
when we don't know the answer to something, we say we don't 
know the answer. And that's the reason why you're hearing us be 
very cautious, for example, of saying we believe and think that 
there is a direct causal relationship between infection of a 
pregnant woman and microcephaly, but we haven't yet done the 
definitive studies. And the reason we don't want to say 
anything definitive unless we do the study, because there may 
be other cofactors that are involved that we don't know about. 
And if we come out confidently saying something and then it 
turns out not to be the case, we lose credibility. So we're 
very careful to only talk on evidence-based as opposed to 
guessing what we think the answer is.
    Mr. DeSaulnier. From the CDC's perspective----
    Dr. Schuchat. Yeah. We think that the changes in 
communication have both benefit and harm. And so, of course, 
it's much easier to reach a lot of people, but that means it's 
much easier for everyone to reach a lot of people. So the 
credibility of the public health folks doing the talking is 
critical, and we really want to protect that.
    Mr. DeSaulnier. I think we're all aware in our world about 
the benefits and the curses of social media.
    Mr. Chairman, I yield back the balance of my time. Thank 
you very much.
    Mr. Mica. I thank the gentleman.
    I have a few more followup questions. Okay. We have people 
in the United States who were infected. They were infected 
outside. Right now, it's winter across the United States, and 
we're getting into more of the mosquito season. Do we know if 
the disease can be transmitted from a mosquito biting an 
infected person?
    Dr. Fauci, do you know? We're gaining in the number of 
infected people in the United States. It's in their blood. And 
a mosquito bites them; then we infect the mosquito population 
here.
    Dr. Fauci. Right. That certainly can happen.
    Mr. Mica. I'm not a scientist.
    Dr. Fauci. Well, certainly, that's the way it is spread now 
in the areas where there is local transmission in South America 
and the Caribbean. We have those mosquitos in the United 
States, particularly in a certain region in the Southeast and 
part along the Gulf Coast. And one of the things that we're 
preparing for is that we have, as you've heard from Dr. 
Schuchat and others, a considerable number of imported cases 
that got infected elsewhere and come home. We're going to see 
more of those. What will not be surprising is that sometime in 
the future, we will see local transmission, where just what 
you're saying happens, where someone comes back. They get bit 
by a mosquito and transmit----
    Mr. Mica. The way you stop that is you stop the mosquito, 
like we have gone after West Nile. We had West Nile right here 
in Washington, D.C.
    Dr. Fauci. Right. Exactly. So it's an enhanced mosquito 
control. And that's exactly what the people in Florida----
    Mr. Mica. Okay. That's mostly a State and local issue. I 
don't know if we are helping those local entities or if they 
can use their funds. We have CDC funds--not CDC funds. We have 
it--what is it, community block grants?
    Dr. Schuchat. Quite a bit of the emergency request is to be 
able to support State and local mosquito control. Mosquito 
control is very patchy right now. And there aren't----
    Mr. Mica. In Florida, we're damned good at it because we 
have had mosquitos in, well, most of the Gulf Coast region. And 
I've worked in Louisiana along the Gulf Coast of Texas, and 
they're pretty good at it. But, again, there are places that 
are not as good at it. And the reaction that Florida has taken 
is--Florida has set a model already for the United States. But 
what we want to do is make certain we're covering the rest. It 
sounds like we have already had a little damage in Puerto Rico, 
the Virgin Islands, and some of the Caribbean region.
    Dr. Schuchat. Yes. The living conditions and the climate in 
Puerto Rico and the Caribbean are such that the mosquitos are 
very intense, circulating year around. In areas that actually 
have good mosquito control in the U.S., the type of mosquito 
that we're dealing with here is a bit difficult. There are a 
variety of species. But the Aedes aegypti mosquito is a daytime 
biter. It's inside and outside.
    Mr. Mica. Again, public information for folks in the 
continental United States: You've got to use insect repellent. 
The local authorities and State have to do more spraying. We 
can't leave--I've seen some of the recommendations already--
even small amounts of standing water are breeding ground for 
the coming spring and summer.
    Dr. Schuchat. It just may need to be more intensive 
mosquito control because this one is quite difficult, 
particularly, as I mentioned, in Puerto Rico.
    Mr. Mica. Now you didn't mention this, Dr. Moreau, but I 
read about it and didn't think about it. Did you mention that 
the games are being held in Brazil in their winter? Did you 
mention that? It might have been in your written testimony. But 
folks don't know that, which means that you've got the best 
chance of not getting infected in Brazil where your Olympics 
are being held. Is it in July or August? I forget the dates. 
What is it?
    Dr. Moreau. August for the Olympic Games and September for 
the Paralympic Games.
    Mr. Mica. That's some of your coldest months down there, so 
you've got your least likely time of being infected for folks 
that want to go. We want our U.S. team to participate, to be 
protected, and we want our visitors also to have that. Every 
time you get a chance, Dr. Moreau, you need to tell folks they 
have the least chance of being bitten or infected during that 
period of time because it's the opposite of the northern 
hemisphere. Okay?
    Okay. DOD has already done a lot of work. How have we been 
coordinating with DOD, Department of Defense? For anyone.
    Can you tell us, CDC?
    Dr. Schuchat. Maybe I can begin, and Dr. Fauci can 
continue. There's quite a bit of the intergovernmental 
coordination across the leadership to do the planning, both for 
force protection. There's also a lot of research that DOD does, 
and they are part of our countermeasures group.
    Mr. Mica. So we're not duplicating.
    Dr. Schuchat. No. And the same with the Ebola research. One 
of the promising vaccines was developed originally through 
military work, so I would say the coordination is good.
    Mr. Mica. What would you say, Dr. Fauci?
    Dr. Fauci. I totally agree. In fact, we have worked with 
the DOD on a number of issues, the most recent of which was 
Ebola. We'll be doing it here, and we have very good 
coordination, and it comes centrally. I mean, we coordinate 
within HHS, but through NSC, we coordinate among all the 
agencies.
    Mr. Mica. At this point in the record--and with your 
permission, Ms. Duckworth--I'll enter in the record, and we're 
trying to get everybody who is involved here, their testimony, 
and we asked DOD, who is not a witness. We have testimony from 
the Department of Defense. We have testimony from U.S. Agency 
for International Development and testimony from the American 
Mosquito Control Association.
    And the gentlelady moves that this be made part of the 
record.
    Without objection, so ordered.
    Mr. Mica. So we'll put that in the record at this point. 
Because, again, I've got three--well, two Federal agencies 
here, and we have got the State witness association here for 
our Olympic Committee, and we need to know that we have a 
coordinated and seamless connect with all of our agencies.
    Did you want to comment any more on DOD?
    Okay. I just saw here that there is research outside the 
United States, a British technology company--I don't know the 
name--is currently testing a genetically modified mosquito 
named, a famous mosquito named OX513A in Brazil. Are you aware 
of this, Dr. Fauci?
    Dr. Fauci. Yes.
    Mr. Mica. Are we doing anything with these folks?
    Dr. Fauci. Yes, we are. The idea of genetically modified 
mosquitos, which you make a male sterile and release it into 
the environment, is something----
    Mr. Mica. And they released some of these on an island 
already?
    Dr. Fauci. Yes, they have. The release of genetically 
modified mosquitos in order to prevent the procreation of other 
mosquitos is something that has been tried in local ways where 
you would go into a relatively restricted geographic area, and 
it seems to be rather effective at a local level. The challenge 
with genetically modified mosquitos in addition to somewhat of 
the societal pushback about anything genetically modified being 
released into the environment is that it's difficult to scale 
it up on a countrywide basis. That's one of the problems we 
have with that.
    Mr. Mica. Okay. So, again, I'm just trying to find out if 
we're covering all of our bases here. Then you've got--and I'm 
learning more as we go along--you recommended, CDC, some of the 
insect repellent. And I just found out--I didn't know they had 
this--this is insect repellent for clothing and gear. And our 
all-knowledgeable ranking member, who knows about DOD, said: 
Yes, they have this, but they've also found it causes cancer.
    This seems like a good product. And I go down to like 
Puerto Rico all the time, one of my favorite places to visit. I 
just came back after the holidays. But is this stuff good to 
use, and are you guys recommending that? CDC, tell us if the 
cure is worse than the disease.
    Dr. Schuchat. We work really closely with the EPA, who 
registers insecticides and repellents and so forth, and so our 
Web site has a link to what is okayed and what is not. So there 
are many repellents, and then there is permethrin treatment for 
the clothing, which some of the products are fine.
    Mr. Mica. The staff said that you said this is okay. But 
I'll also be conscious of the warning of my very knowledgeable 
ranking member.
    Ms. Duckworth. We used to soak our uniforms in it.
    Mr. Mica. She said they used to soak their uniforms in it. 
I've never heard of it, but it's just interesting. Again, 
getting information out to people how they can protect 
themselves is so important, so it covered some of that.
    I was kind of shocked the first time I've heard your 62 
days, at least for the males, to possibly be infected and have 
a--pose some risk. I've not seen that before. Is that the first 
time you've announced it today?
    Dr. Fauci. That report has been out for a few weeks now----
    Mr. Mica. I've not heard it publicly. I've heard 21 to 30 
days advisory, which is a different situation, but I think we 
need to be aware of that. I appreciate your making it known 
publicly.
    Dr. Armstrong, you haven't been neglected, and we 
appreciate your coming here. Okay. You're at the other end of 
the spectrum. I've gotten a good report from our local health 
officials, quick response from the Governor, the quick response 
from you at the State level. Tell us, candid--I know it's 
awkward having CDC and NIH here--is there something we're 
missing? Is there something you could recommend that we should 
pay attention to from the State level and local? You're on the 
front line.
    Dr. Armstrong. Thank you for your question. We have to 
manage the situation in the State and locally with what we 
know. And what we have appreciated is guidance from the CDC now 
that is acknowledging uncertainty and what we don't know and 
helping us to really provide insights for people out of an 
abundance of caution so that we keep them safe. I think that's 
been a key change from Ebola to Zika, that there is 
acknowledgement by the CDC that just because they don't have a 
definitive answer to something doesn't mean something doesn't 
need to be said. We still need a guideline, and we, again, are 
leveraging all of the CDC guidelines to protect the people of 
Florida and our visitors.
    Mr. Mica. Question, a followup to my question to Dr. Fauci 
about the genetically modified organisms. I guess there was 
some effort in Florida to curtail some mosquito-borne threats 
in Florida using that approach. Are you aware of that?
    Dr. Armstrong. Yes, I am aware of that in the past, and I 
think that----
    Mr. Mica. --that's a route we should take? Was that 
successful? What did we use that on? I don't recall.
    Dr. Armstrong. I'll have to get you the specific virus 
against which we were using a mosquito approach, but I would 
echo what Dr. Fauci says. I think there needs to be a great 
deal of public awareness and education before doing that, and 
we need to be aware of unintended consequences from producing 
genetically modified mosquitos.
    Mr. Mica. Now the other thing is you're at the State level; 
you're at the Federal level. When I spoke with one of our local 
health directors, he said: We get these cases. And he says: 
We're also responsible for monitoring the individuals who are 
infected. He says: Well, we have very limited staff, and I need 
people then to be the monitors. And as you get multiple people, 
you need multiple staff checking up on them. So some of the 
resources to the local entities to actually monitor these 
folks, it appears it might be putting a strain on them. Do you 
have a way of dealing with that? Do we have some emergency 
funds at the State level to make certain that folks who are 
infected are monitored?
    Dr. Armstrong. At this point, we are applying what we 
learned through monitoring for Ebola virus. We had a very 
aggressive program----
    Mr. Mica. Yes, they told me, actually--listen to this--he 
said, ``One way we would go,'' when they thought someone was 
infected with Ebola, he said they would come with a sign, 
``what's your temperature,'' he says, because you didn't want 
to come in contact with them. That was a different situation, 
but you have to modify your approach to the risk even for the 
worker. My concern was the funds to make certain you have the 
workers who can go out and monitor these folks. Right now, 
these are very limited numbers, but we'll have to make certain 
at a State level or on an emergency basis if we see where we've 
got to have additional personnel, that that need is met. I 
think those are the major questions.
    Again, we have some serious issues here. We have done--or 
you all have done--we have done nothing yet--but you've done a 
great job in staying ahead of it. Usually, this committee is 
very harsh on folks, and we had some tough time with the start 
of Ebola and some other issues, but I'm very pleased with where 
we are right now. We just want to keep it under control and go 
forward.
    Did you have anything else Ms. Duckworth?
    Mr. DeSaulnier?
    We'll, again, keep the record open for additional questions 
for our witnesses and make any responses part of the record 
today.
    I want to thank each of you for your good work, for 
testifying today, and look forward to working with you, and 
we'll try to pledge ourselves to get the resources that are 
necessary in a timely fashion.
    There being no further business before the subcommittee, 
this hearing is adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
               
 
                                 [all]
</pre></body></html>
